No. 20-303
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, PETITIONER
v.
JOSE LUIS VAELLO-MADERO

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES, via e-mail and first-class mail, postage prepaid, this
7TH day of June 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains_11078
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on _June 7, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 7, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin=s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

20-0303
USA
JOSE LUIS VAELLO-MADERO

DWYER ARCE
KUTAK ROCK LLP
1650 FARNAM STREET
OMAHA, NE 68102-2186
402-661-8656
DWYER.ARCE@KUTAKROCK.COM
MANUEL DEL VALLE
URB. INDUSTRIAL CALLE FEDERICO COSTA
#170
INTERAMERICAN SCHOOL OF LAW
HATO REY, PR 00918-1303
HERMANN FERRÉ
CURTIS, MALLET-PREVOST, COLT & MOSLE
LLP
101 PARK AVENUE
NEW YORK, NY 10178
HFERRE@CURTIS.COM
JOHN W. FERRÉ-CROSSLEY
P.O. BOX 14773
SAN JUAN, PR 00919
JOSE A. HERNANDEZ MAYORAL
206 TETUAN ST.
STE 702
SAN JUAN , PR 00901
787-722-7782
JOSE@HERNANDEZMAYORAL.COM

S/GREGORIO IGARTUA
BOX 3911
AGUADILLA , PR 00605
787-891-9040
BUFETEIGARTUA@YAHOOO.COM
CARLOS LUGO-FIOL
P.O. BOX 260150
SAN JUAN, PR 00926
787-721-2900
CLUGOFIOL@GMAIL.COM
KATHLEEN M. SULLIVAN
QUINN EMANUEL URQUHART & SULLIVAN,
LLP
51 MADISON AVENUE
22ND FLOOR
NEW YORK, NY 10010
212-849-7000
KATHLEENSULLIVAN@QUINNEMANUEL.CO
M

